NO. 20-6296

IN THE SUPREME COURT OF THE UNITED STATES
DAVID LAGUE,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit

REPLY BRIEF FOR PETITIONER

Leah Spero

Counsel of Record

Spero Law Office
255 Kansas Street, Suite 340
San Francisco, CA 94103
(415) 565-9600
leah@sperolegal.com

REPLY BRIEF FOR PETITIONER
1. In the published decision below, the Ninth Circuit expressly recognized a
“split of authority” among the circuits regarding the admissibility of other-act data to
show unlawful intent under Federal Rule of Evidence 404(b).

App. 14a.

The

government attempts to distinguish away this split (Br. 15–19), but in doing so
ignores the Ninth Circuit’s extended analysis of the case law and definitive conclusion
that the decisions of the Eighth and Eleventh Circuits on this admissibility issue are
“irreconcilable.” App. 14a. Both parties below attempted to harmonize the case law,
and the Ninth Circuit rejected these attempts. App. 13a–14a. Contrary to the
government’s assertions, there is a circuit split.
Further, the Ninth Circuit’s decision as to which side of the split to follow
affected the outcome here. On one side of the split, the Eighth Circuit held in United

States v. Jones, 570 F.2d 765, 768 (8th Cir. 1978), that data on a physician’s practicewide prescriptions are inadmissible under Rule 404(b) to show an unlawful intent to
prescribe outside the bounds of professional medical practice “[a]bsent any evidence
bearing upon [the defendant’s] treatment of the patients in question.” On the other
side of the split, the Eleventh Circuit held in United States v. Merrill, 513 F.3d 1293,
1303 (11th Cir. 2008), that data evidence of the quantity and combination of
prescriptions alone, without evidence of the underlying patients’ needs or treatment,
is admissible to show an unlawful intent.
The Ninth Circuit sided with the Eleventh Circuit’s view. App. 15a. It ruled
that petitioner David Lague’s practice-wide prescription data showing “enormous

1

quantities, and in dangerous combinations, support[ed] a reasonable inference that
the underlying prescriptions were issued outside the usual course of professional
practice,” ibid., without any evidence of the underlying patients’ needs and course of
treatment. Had the Ninth Circuit followed the Eighth Circuit’s approach in Jones,
the data from Lague’s practice would have been inadmissible without evidence about
the impropriety of the underlying treatments.
The government draws a factual distinction between this case and the Eighth
Circuit’s decision in Jones to explain the difference in outcome—but the distinction
is inaccurate. Br. 16–17. According to the government, there was no contextual
evidence in Jones that the uncharged prescriptions were unlawful while, here, the
evidence included professional standards that revealed Lague’s deviation from the
norm and thus supported an inference of illegality. Ibid. In Jones, however, there
was deviation-from-the-norm evidence. The government introduced testimony that
the defendant’s prescriptions accounted for 47% of one drug store’s total volume of
Schedule II drug prescriptions. Jones, 570 F.2d at 767. This evidence reflected that
the defendant prescribed well above the norm and, according to the Eighth Circuit,
was introduced “to imply wrongdoing on the physician’s part from the quantity of the
[uncharged] prescriptions.” Id. at 769. Here, the government used norm comparisons
for the same effect: to imply wrongdoing and a wrongful intent.
The admissibility issue raised in Lague’s petition asks a more fundamental
question underlying these comparisons. Is practice-wide data that shows a deviation
from the norm admissible to prove an intent to unlawfully prescribe, even if the jury

2

learns nothing about the circumstances of the prescriptions within the data set?
More broadly, are statistical aberrations indicative of guilt? Pet. 24–25.
As discussed in Lague’s petition, the Eighth and Tenth Circuits, and two
district courts, have taken the view that the government must produce evidence that
the other acts captured in the data were unlawful for purposes of admission under
Rule 404(b) to establish unlawful intent. Pet. 11–18. Thus, in unlawful prescription
cases, the government must introduce evidence of the treatment of the other patients
included in the data set that establishes an inference of illegality. However, the
Ninth Circuit, siding with the Eleventh Circuit, has held instead that practice-wide
data are admissible to show unlawful intent based only on the large prescription
amounts or outlier prescription rates compared to other practitioners. Ibid.
The Ninth Circuit’s published decision acknowledged the circuit split on this
issue, and this Court should grant review to resolve the split.
2. Contrary to the government’s assertions (Br. 19–20), this case is an ideal
vehicle to address the data admissibility issue. The Ninth Circuit squarely addressed
the issue. Pet. 25–26. Further, there are enough decisions on both sides of the issue
to give the Court a full understanding of the competing views. Pet. 11–21. The
government does not dispute these points but argues instead that this case is a poor
vehicle because the Ninth Circuit found harmless error with regard to a Rule 403
challenge that is not raised in this petition. Br. 19. The Ninth Circuit ruled that the
admission of the data before the district court reviewed it under Rule 403 was not
prejudicial. Ibid.

3

However, the Ninth Circuit could still decide that the admission of the data, if
it was in error under Rule 404(b), was prejudicial. The court is not bound by its
prejudice determination as to a different challenge. Tellingly, the district court,
which has the best sense of the data’s effect, candidly acknowledged that the
admission of the data “reasonably could have affected whether the jury thought Mr.
Lague’s prescriptions were unlawful.” App. 24a.
CONCLUSION
For the foregoing reasons, and those stated in the petition for writ of certiorari,
the petition should be granted.

Dated: February 25, 2021

________________________________
LEAH SPERO

Counsel of Record
Spero Law Office
255 Kansas Street, Suite 340
San Francisco, CA 94103
(415) 565-9600
leah@sperolegal.com

4

